No. 20-1374

In the Supreme Court of the United States
CVS PHARMACY, INC., et al.,
Petitioners,
v.
JOHN DOE, ONE, et al.,
Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
BRIEF OF PHARMACEUTICAL CARE
MANAGEMENT ASSOCIATION AS AMICUS CURIAE
IN SUPPORT OF PETITIONERS
MICHAEL B. KIMBERLY
Counsel of Record
SARAH P. HOGARTH
McDermott Will & Emery LLP
500 North Capitol St. NW
Washington, DC 20001
(202) 756-8000
mkimberly@mwe.com
Counsel for Amicus Curiae

i
TABLE OF CONTENTS

Table of Authorities.................................................... ii
Introduction and Interest of the Amicus Curiae .......1
Argument .....................................................................4
The Ninth Circuit’s decision implicates
matters of significant practical importance
worthy of further review ........................................4
A. The use of innovative network
management tools is essential to the safe,
reliable, and cost-effective delivery of
prescription drugs ...........................................4
1.

PBMs make available a wide range
of benefit management features ..............5

2.

Benefit management features like
specialty pharmacy requirements
help keep prescription drug costs low ....10

B. The decision below threatens the viability
of numerous benefit management tools and
is certain to drive up prescription drug
costs dramatically .........................................12
C. The use of specialty pharmacies and
similar network management tools is not
unlawfully discriminatory.............................14
Conclusion .................................................................18

ii
TABLE OF AUTHORITIES

Cases
Doe v. BlueCross BlueShield of Tennessee,
926 F.3d 235 (6th Cir. 2019) .......................... 14, 15
Modderno v. King,
82 F.3d 1059 (D.C. Cir. 1996) .............................. 15
Statutes
42 U.S.C.
§ 300gg-6(a) .......................................................... 16
§ 18022(b)(1)(F ..................................................... 16
Other authorities
Brenda R. Motheral,
Pharmaceutical Step-Therapy Interventions:
A Critical Review of the Literature,
17 J. Managed Care Pharmacy 143 (2011) ......... 10
California Senate Bill 524 Fact Sheet ...................... 14
Catherine I. Starner et al., Rosiglitazone Prior
Authorization Safety Policy: A Cohort Study,
18 J. Managed Care Pharmacy 225 (2012) ........... 9
Centers for Medicare & Medicaid Services,
Part D Claims Analysis: Negotiated Pricing
Between General Mail Order and Retail
Pharmacies (Dec. 2013) ......................................... 7
Centers for Medicare & Medicaid Services,
Medicare Advantage Prior Authorization
and Step Therapy for Part B Drugs
(Aug. 7, 2018) ....................................................... 10
Centers for Medicare & Medicaid Services,
NHE Fact Sheet (visited Apr. 16, 2021) .............. 11

iii
Other authorities—continued
Cong. Budget Office, Issues in Designing a
Prescription Drug Benefit for Medicare
(Oct. 2002) ...................................................... 11, 12
Daniel M. Hartung et al., Effect of a High Dosage
Opioid Prior Authorization Policy on
Prescription Opioid Use, Misuse, and Overdose
Outcomes, 39 Substance Abuse 239 (2018) ........... 9
David A. Hyman, The Unintended Consequences
of Restrictions on the Use of Maximum
Allowable Cost Programs (“MACs”) for
Pharmacy Reimbursement (Apr. 2015) ................. 5
Elena V. Fernandez et al., Examination of the Link
Between Medication Adherence and Use of
Mail-Order Pharmacies in Chronic Disease
States, 22 J. Manag. Care Spec. Pharm. (2016).... 6
Fed. Trade Comm’n, Pharmacy Benefit Managers:
Ownership of Mail-Order Pharmacies
(Aug. 2005) ......................................................... 5, 8
Gov’t Accountability Office, Effects of Using
Pharmacy Benefit Managers on Health Plans,
Enrollees, and Pharmacies (Jan. 2003) ............... 12
Gov’t Accountability Office, Medicare Part D: Use
of Pharmacy Benefit Managers and Efforts to
Manage Drug Expenditures and Utilization
(July 2019) ............................................................ 12
Inmaculada Hernandez et al., The Contribution
of New Product Entry Versus Existing Product
Inflation in the Rising Cost of Drugs,
38 Health Affairs (Jan. 2019) .............................. 11

iv
Other authorities—continued
Joanna Shepherd, The Fox Guarding the
Henhouse: The Regulation of Pharmacy
Benefit Managers by a Market Adversary,
9 Nw. J. L. Social Policy 1 (2013) ........................ 11
Johns Hopkins Bloomberg School of Public
Health, The Prescription Opioid Epidemic:
An Evidence-Based Approach (Nov. 2015) ............ 9
Michael A. Fischer & Jerry Avorn,
Step Therapy – Clinical Algorithms,
Legislation, and Optimal Prescribing,
317 J. Am. Med. Ass’n 801 (2017) ....................... 10
Patrick P. Gleason et al., Dalfampridine Prior
Authorization Program: A Cohort Study,
19 J. Managed Care Pharmacy 18 (2013) ............. 9
Pharmaceutical Care Management Association,
PBM Specialty Pharmacies Improve Patient
Outcomes and Reduce Costs (Apr. 2017) ............... 7
Tricia Lee Wilkins, Prior Authorization and
Utilization Management Concepts in
Managed Care Pharmacy, 25 J. Managed
Care & Specialty Pharmacy 641 (2019) ............ 8, 9

INTRODUCTION AND
INTEREST OF THE AMICUS CURIAE*1

The work of designing and implementing a prescription drug benefit plan is complex and multifaceted. A plan sponsor—typically working with a
third-party pharmacy benefit manager (PBM)—must
identify which drugs to cover, determine how costs will
be shared between the plan and its participants, and
identify and negotiate discounts and rebates from
pharmaceutical manufacturers and the terms of
reimbursement with hundreds or thousands of
pharmacies. This is not a one-size-fits-all undertaking.
Insurers and employers typically offer, and consumers
have come to expect, a range of options that balance
the size and scope of the benefit (which drugs are
covered, at what pharmacies, on what terms) with
overall cost (the size of premiums and amount of costsharing) in varying ways.
At its core, the question presented in this case is
whether the design and implementation of such plans
is in the hands of plan sponsors and the PBMs they
retain, as Congress expressly intended with statues
like the Employee Retirement Income Security Act
(ERISA)—or, instead, federal judges. In holding for the
first time that disparate-impact disability-discrimination challenges to facially neutral plan terms are
cognizable under Section 1557 of the Patient Protection
and Affordable Care Act (ACA), the Ninth Circuit has
chosen federal judges. And it has done so in a way that
threatens the ongoing viability of a wide range of common prescription drug benefit management tools.
*1No counsel for a party authored this brief in whole or in part,
and no party other than amicus or its counsel contributed
financially to the preparation or submission of the brief. All
parties have consented to the filing of this brief.

2
Mail-service and specialty pharmacies, for
example, are essential for promoting plan participants’
compliance with prescription drug regimens, ensuring
quality-control for drugs that require special handling,
and containing the cost of unusually expensive drugs.
The Ninth Circuit held, in practical effect, that these
commonplace benefit management features are
unlawful under Section 1557 because they discriminate
among different classes of drugs—resulting, in turn, in
a “disparate impact” on participants who depend on
particularly expensive drugs to manage chronic health
conditions.
That decision cries out for further review. The
Nation’s antidiscrimination laws require plan sponsors
to treat participants equally, using facially neutral
plan terms, without regard for disability. They do not
require plan sponsors to guarantee equally convenient
access to all prescription drugs, regardless of important
differences in the cost or complexity of handling such
drugs.
Taken to its logical conclusion, the Ninth Circuit’s
contrary position would invalidate the substantive
terms of most prescription drug plans, compelling plan
sponsors to tailor all benefits to the “unique pharmaceutical needs” (Pet. App. 15a) of those with the most
complex medical conditions. Anything short of that will
have a supposedly unlawful “disparate impact” on
disabled plan participants if they are denied the most
convenient available method for accessing their
drugs—albeit by operation of facially neutral plan
terms that they accepted when choosing their coverage.
Such an outcome would upend the U.S. healthcare
system, which is founded on the notion that plan
sponsors are free to offer, and consumers are free to
select, plans with benefits that include different terms
for the delivery and reimbursement of different drugs.

3
It would also gut prescription drug coverage as we
know it, removing the tools that enable plans to offer
affordable prescription drug benefits to consumers,
including those with disabilities.
The Pharmaceutical Care Management Association
(PCMA) is the national trade association representing
the interests of PBMs. PCMA’s members design and
administer prescription drug benefits for more than
266 million Americans who have health insurance
through employer-sponsored health plans, commercial
health plans, union plans, Medicare Part D plans,
managed Medicaid plans, and others. As part of its
mission, PCMA seeks to promote and defend the
benefit management tools proven to lower prescription
drug costs while increasing access to drugs and improving plan-participant safety and adherence.
PCMA and its members know firsthand the value
of being able to design prescription drug plans in
varying ways for consumers with different medical
needs and budgets. Benefit design features like preferred pharmacy networks, formularies, prior authorizations, step therapy protocols, specialty pharmacies,
and mail-service programs contribute to PBMs’ ability
to deliver cost-effective prescription drug benefits with
improved plan-participant access and outcomes. That
is so despite that these features may, as a practical
matter, affect the ways in which plan participants with
disabling medical conditions receive the drugs they
need.
PCMA is wholeheartedly committed to the principle that prescription drug benefit plans must be
designed using facially neutral rules that do not discriminate on the basis of disability or any other inappropriate criteria. The mail-service and specialty
pharmacy provisions at issue here are in keeping with
that commitment. In holding that these network

4
management tools can be unlawfully discriminatory
nonetheless, the decision below poses a serious threat
to the viability of countless other benefit design
features and, with them, insurers’ and employers’
ability to control prescription drug spending and
quality and consumers’ ability to access medically
necessary drugs at affordable costs.
The Court should grant the petition for a writ of
certiorari and correct the Ninth Circuit’s seriously
misguided holding in this case.
ARGUMENT
THE NINTH CIRCUIT’S DECISION IMPLICATES
MATTERS OF SIGNIFICANT PRACTICAL IMPORTANCE WORTHY OF FURTHER REVIEW

The question presented in the petition is tremendously important and worthy of this Court’s attention.
If allowed to stand, it will threaten the ability of
insurers and employers to offer appropriately costcontrolled prescription drug benefits while also ensuring a high quality of care. The result will be drastically
higher premiums, higher cost-sharing responsibility at
the point of sale, and less generous benefits across the
board. That is the exact opposite of what Congress
intended when it enacted comprehensive health insurance reform, including the ACA’s nondiscrimination
provisions.
A. The use of innovative network management
tools is essential to the safe, reliable, and
cost-effective delivery of prescription drugs

This case concerns two of the many tools that
PBMs, on behalf of their health-plan clients, 2 use to
In the ERISA context, PBMs act at the direction of the plan’s
fiduciaries to provide services to the plan and to manage benefits
in accordance with the contract between the plan and PBM.
2

5
ensure broad access to prescription drug benefits and
improved plan-participant outcomes while containing
the otherwise prohibitive cost of prescription drug
coverage. While the facts of this case concern just two
of these tools, the lower court’s reasoning potentially
implicates a broader range of essential prescription
benefit design features.
1.

PBMs make available a wide range of
benefit management features

In an effort to reign in skyrocketing prescription
drug costs driven primarily by rising manufacturer list
prices, PBMs have continually innovated within the
prescription drug market over the past several
decades. They have created many tools to achieve the
goals of lowering consumers’ and health plans’
prescription drug costs while at the same time
increasing access, safety, and adherence.
Pharmacy networks generally. PBMs develop the
networks of pharmacies that plan sponsors use to
determine where plan participants can fill their prescriptions. Networks benefit plan sponsors, plan participants, and pharmacies alike. Pharmacies compete
for inclusion in PBM networks because it attracts a
steady stream of business from plan participants and
gives pharmacies access to PBMs’ instant, point-of-sale
reimbursements processes. See Fed. Trade Comm’n,
Pharmacy Benefit Managers: Ownership of Mail-Order
Pharmacies 4-5 (Aug. 2005), https://perma.cc/4F6KUSVC. About 95% of all retail pharmacies throughout
the Nation are included in one or more PBM networks.
David A. Hyman, The Unintended Consequences of
Restrictions on the Use of Maximum Allowable Cost
Programs (“MACs”) for Pharmacy Reimbursement 5
(Apr. 2015), https://perma.cc/LPX5-RFP6. For their
parts, plan sponsors and participants benefit from
lower negotiated reimbursement rates.

6
Plan sponsors can (and typically do) offer a range
of plans with different network options. Some plans
use large and embracive pharmacy networks that
include virtually all pharmacies willing to provide
discounts to the plan. Other plans use significantly
narrower pharmacy networks through which they can
achieve deeper discounts, offering participants a
narrower benefit at lower cost. Still other plans use a
tiered network, which includes both “preferred” innetwork pharmacies and regular in-network pharmacies. Preferred pharmacies offer more favorable
discounts in exchange for preferred status and thus
higher patient volume. Plan participants then pay
smaller copays or lower coinsurance at preferred pharmacies, while still enjoying the option of using a wide
range of other pharmacies at somewhat higher costsharing levels if they choose.
Mail-service pharmacies. PBMs often encourage
the use of mail-service pharmacies that fill and deliver
prescriptions through the mail. Receiving regularly
needed medications by mail serves the convenience of
consumers and promotes better adherence by eliminating barriers to access. E.g., Elena V. Fernandez et al.,
Examination of the Link Between Medication Adherence and Use of Mail-Order Pharmacies in Chronic
Disease States, 22 J. Manag. Care Spec. Pharm. 12471259 (2016), https://perma.cc/2RM2-KP7C.
Mail-service pharmacies are especially important
for individuals with limited transportation options
(including consumers in rural areas) or health conditions that restrict their mobility. Indeed, researchers
have found statistically significant improvements in
compliance for consumers receiving medications for a
variety of afflictions, including hypertension, high
cholesterol, and diabetes, from mail-service drug delivery. Fernandez 1254. The flexibility to receive pre-

7
scriptions by mail has been critical to many during a
global pandemic, in particular, given that simply
picking up a prescription at a pharmacy has presented
a substantial health risk in its own right.
Because they are able to fill prescriptions on a
larger scale, mail-service pharmacies can also implement computer-controlled quality processes, robotic
dispensing, and advanced workflow practices that
dispense prescriptions with greater accuracy and
reduce medication errors. For the same reason, mailservice pharmacies also produce substantial plan
savings through greater discounts made possible by
their scale. See Centers for Medicare & Medicaid
Services, Part D Claims Analysis: Negotiated Pricing
Between General Mail Order and Retail Pharmacies
(Dec. 2013), https://perma.cc/ZY46-9CZL.
Specialty pharmacies. PBMs also frequently
partner with specialty pharmacies to dispense and
manage drug regimens for rare or particularly complex
health problems. Specialty drugs often entail unique
consumer education protocols, complex or unusual
storage or shipment requirements, or unusually high
monthly costs.
Specialty pharmacies have specialized credentials
to manage such complicated drug regimens safely and
effectively. Typical retail or manufacturer-affiliated
pharmacies are not equipped to manage the complex
logistics or monitoring necessary to ensure safe and
effective specialty drug use. By leveraging scale and
expertise, specialty pharmacies dramatically improve
patient outcomes and reduce costs for those with
conditions like HIV. See PCMA, PBM Specialty Pharmacies Improve Patient Outcomes and Reduce Costs
(Apr. 2017), https://perma.cc/4WP6-JECY.
Formularies. In addition to the tools at issue in
this particular case, PBMs use a variety of other

8
methods to structure prescription drug benefits and
ensure that drugs are used in an efficient and effective
manner. Formularies, for example, are lists of prescription drugs that a plan covers. To create and
manage formularies, PBMs convene panels called
“pharmacy and therapeutics committees” comprising
experts who are qualified to select the most clinically
appropriate drugs for a given drug class and indication.
Formularies encourage clinically sound and costeffective prescription drug coverage. See Fed. Trade
Comm’n at i.
Plans can customize their formularies to their own
preferences. Some plans may choose an open formulary, according to which the plan sponsor covers most
or all prescription drugs. Other plans may choose a
more limited, closed formulary that covers a narrower
range of drugs listed on the formulary in favor of lower
overall pricing. And still other plans may choose a
tiered formulary in which preferred drugs come with
lower cost-sharing or other financial incentives, even
though the plan may still offer some coverage for nonpreferred drugs at a higher cost-sharing level. As with
pharmacy networks, consumers have come to expect a
range of options, balancing convenience and medical
need with overall cost.
Prior authorizations and step therapy. PBMs
also offer plans the option to include prior authorization, step therapy, and other utilization management
protocols as methods to reduce the potentially
unnecessary use of especially high-risk or high-cost
drugs. See Tricia Lee Wilkins, Prior Authorization and
Utilization Management Concepts in Managed Care
Pharmacy, 25 J. Managed Care & Specialty Pharmacy
641, 641 (2019) (explaining that prior authorization
helps “optimiz[e] patient outcomes and reduc[e] waste,
error, unnecessary drug use, and cost”). Prior auth-

9
orization means that a plan must pre-approve a drug
before the pharmacy is permitted to dispense it as a
covered drug. For those drugs with a high risk of
abuse, prior authorization may help prevent the
development of substance abuse problems. 3 For drugs
with particularly troublesome side-effects, prior
authorization encourages better consumer education
and understanding before a drug is dispensed.4 And for
drugs with unusually high costs, prior authorization
may promote the use of less expensive alternative
medications first. See Wilkins 641.
A related protocol—step therapy—affirmatively
requires plan participants to try a medically appropriate alternative drug, like the generic version of a
branded drug, when starting a new prescription
regimen. See generally Brenda R. Motheral, Pharmaceutical Step-Therapy Interventions: A Critical Review
of the Literature, 17 J. Managed Care Pharmacy 143
(2011); Michael A. Fischer & Jerry Avorn, Step
E.g., Johns Hopkins Bloomberg School of Public Health, The
Prescription Opioid Epidemic: An Evidence-Based Approach 32
(Nov. 2015), https://perma.cc/P9MU-P884 (observing that one
PBM’s use of “prior authorization for more than 30 days of opioid
therapy” helped “to reduce inappropriate prescribing” by 6.6
million pills over an 18 month period); accord Daniel M. Hartung
et al., Effect of a High Dosage Opioid Prior Authorization Policy on
Prescription Opioid Use, Misuse, and Overdose Outcomes, 39
Substance Abuse 239, 243-245 (2018).
3

E.g., Patrick P. Gleason et al., Dalfampridine Prior Authorization Program: A Cohort Study, 19 J. Managed Care Pharmacy 18,
18-19 (2013) (detailing the use of prior authorization to prevent
seizure side effects in individuals with multiple sclerosis);
Catherine I. Starner et al., Rosiglitazone Prior Authorization
Safety Policy: A Cohort Study, 18 J. Managed Care Pharmacy 225,
226 (2012) (finding that prior authorization for rosiglitazone, a
drug for type 2 diabetes, reduced the risk of dangerous drug
interactions).
4

10
Therapy – Clinical Algorithms, Legislation, and Optimal Prescribing, 317 J. Am. Med. Ass’n 801 (2017).
Step therapy encourages both plan participants and
prescribers to evaluate appropriate therapeutic
alternatives before immediately selecting the most
risky or most expensive option first.
The Centers for Medicare and Medicaid Services
(CMS) for its part recently acknowledged that introduction of prior authorization and step therapy
protocols in Medicare Advantage plans “will lower
costs” and “promot[e] better clinical decisions,” overall
“improv[ing] the quality of care for Medicare beneficiaries.” CMS, Medicare Advantage Prior Authorization and Step Therapy for Part B Drugs (Aug. 7,
2018), https://perma.cc/G3ZF-FEXV.
Generic drug utilization. PBMs also encourage
generic drug utilization as a general matter through
preferential cost-sharing terms. Generics offer the
same form, safety, strength, quality, performance, and
intended use as a branded drug, but almost always at a
far lower cost. Encouraging generic drug utilization
saves money for plans and consumers and promotes
greater access to drugs.
2.

Benefit management features like
specialty pharmacy requirements help
keep prescription drug costs low

PBMs use tools like the ones we have just described because they work for plans and consumers
alike. They control prescription drug spending while
ensuring safe and adequate access to prescriptions.
Gutting or limiting the use of these tools would have
profound and lasting consequences for the prescription
drug market and for consumer access to safe,
affordable medications.

11
It is no secret that prescription drug costs in the
United States have dramatically increased over the
past two decades. Price increases have been driven in
part by year-over-year price increases for brand name
drugs already on the market. Inmaculada Hernandez
et al., The Contribution of New Product Entry Versus
Existing Product Inflation in the Rising Cost of Drugs,
38 Health Affairs 81-82 (Jan. 2019), available at
https://www.healthaffairs.org/doi/full/10.1377/hlthaff.
2018.05147. PBMs have played a constant and critical
role in controlling those costs and keeping prescription
drug coverage more affordable in spite of these price
increases. The benefit management tools imperiled by
the decision below have time and again proven their
utility.
By one estimate, PBMs reduce prescription drug
spending by 30% to 35%. Joanna Shepherd, The Fox
Guarding the Henhouse: The Regulation of Pharmacy
Benefit Managers by a Market Adversary, 9 Nw. J. L.
Social Policy 1, 22 & n.143 (2013). To put this in
perspective, the United States spent an estimated
$369.7 billion on prescription drugs in 2019. CMS,
NHE Fact Sheet (visited Apr. 16, 2021), https://perma.cc/D3NW-6X9Y. Without PBMs, that spending
level would have been upwards of $568 billion—meaning that PBMs’ diligent management of prescription
drug benefits realized nearly $200 billion in savings in
2019 alone.
For this reason, the Congressional Budget Office
long ago recognized that “[t]he degree to which PBMs
[can] effectively control Medicare drug costs . . . depends on their being allowed and encouraged to aggressively use the various tools at their disposal” for
keeping costs down. Cong. Budget Office, Issues in
Designing a Prescription Drug Benefit for Medicare, at
xiii (Oct. 2002).

12
The Government Accountability Office (GAO)
similarly has recognized that, when PBMs put to use
the tools we have described here, plan participants get
“wide access to retail pharmacies, coverage of most
drugs, and benefit[] from cost savings.” GAO, Effects of
Using Pharmacy Benefit Managers on Health Plans,
Enrollees, and Pharmacies (Jan. 2003). Plan participants “typically pa[y] lower out-of-pocket costs for
prescriptions filled through mail-order pharmacies and
benefit[] from other savings that reduce[] plans’ costs
and therefore help[] to lessen rising premiums.” Ibid.
The GAO made similar findings more recently, noting
that “utilization management services were associated
with financial savings or improved beneficiary health
indicators.” GAO, Medicare Part D: Use of Pharmacy
Benefit Managers and Efforts to Manage Drug Expenditures and Utilization 26 (July 2019), https://perma.cc/K49G-KRPJ.
All of this is to say, utilization of tools like “formularies * * * and related approaches that steer demand
to preferred drugs, networks of pharmacies, diseasemanagement programs, and efforts to educate patients
and physicians” is essential to effectively controlling
prescription drug spending, and in turn making more
generous prescription drug benefits widely available
and accessible. Cong. Budget Office at xiii.
B. The decision below threatens the viability
of numerous benefit management tools and
is certain to drive up prescription drug
costs dramatically

The decision below threatens the validity of each of
the ubiquitous benefit-management tools we have just
described. Because some chronic and disabling illnesses necessitate especially expensive or risky
medicines, participants with such illnesses will almost
always find themselves disproportionately required to

13
use prior authorizations, specialty pharmacies, mail
services, and the like. Under the Ninth Circuit’s
reasoning below, that represents an unlawful disparate
impact, necessitating condition-by-condition exceptions
to the use of these tools. But the exceptions would
become the rule, and benefits design would be a matter
principally for judges rather than plans and PBMs.
For example, individuals with a relevant disability
could challenge the exclusion of drugs from plan formularies, significantly limiting the point of a formulary to
begin with.
A participant with a disabling condition requiring
prior authorization (depression or diabetes, for example) likewise could challenge that requirement as having a disparate impact on her and all other individuals
with the same condition. After all, individuals with
non-disabling prescription drug needs can typically
obtain their routine medicines without prior authorization.
Step therapy faces the same problem. An individual with a condition that requires her to try a less
expensive alternative medication first could claim a
disparate impact not experienced by non-disabled participants able to obtain their drugs of choice without
such a requirement. On the Ninth Circuit’s reasoning,
those disabled plan participants would be denied
equally “meaningful access” to their drugs.
The decision below thus imperils the full range of
prescription drug benefit-management tools laid out
above. These critical tools that keep premiums and
cost-sharing low for all consumers, including individuals with disabilities, would be effectively stripped
from the tool chest. The Court need not take our word
for it: States have already taken steps to expedite the
implementation of the Ninth Circuit’s logic. In reliance
on the decision below, California Senate Bill 524

14
proposes to bar PBMs from requiring consumers to use
mail-service or specialty pharmacies for any drug
regimens. See California Senate Bill 524 Fact Sheet.
Without these crucial benefit design tools, plans
and PBMs will no longer be able to provide plan
participants with the same level of safe, effective, and
efficient access to prescription drug coverage that they
can today. As drug prices continue to rise, health plans
and PBMs would increasingly find themselves without
the capabilities to control these costs, leaving
consumers’ access to drugs seriously impaired. If
allowed to stand, the decision below is thus certain to
harm millions of Americans who receive prescription
drug insurance coverage. It will, in turn, lead to runaway prescription drug costs, which will mean higher
premiums, higher cost-sharing, and less generous
benefits. Over the long term, it may well render
prescription drug benefits too expensive for sponsors to
continue offering at all. Such a drastic shock to the
system by which more than 266 million Americans
receive prescription drug coverage warrants this
Court’s attention.
C. The use of specialty pharmacies and
similar network management tools is not
unlawfully discriminatory

The petition (at 21-28) lays out persuasively why
the decision below is wrong on the merits. So does the
Sixth Circuit’s well-reasoned opinion in Doe v.
BlueCross BlueShield of Tennessee, 926 F.3d 235, 241243 (6th Cir. 2019) (BCBS), along with the other
decisions discussed at pages 21-23 of the petition.
Although we do not repeat those arguments here, two
points on the merits bear emphasis.
First, the only question posed by the Rehabilitation
Act is whether respondents have been offered the same
coverage on the same terms to all participants, regard-

15
less of disability. See, e.g., Modderno v. King, 82 F.3d
1059, 1066 (D.C. Cir. 1996) (Ginsburg, J., concurring).
They have, and that ought to be an end to the matter.
As the Sixth Circuit explained in BCBS, some medicines that plan documents require to be filled by
specialty pharmacies “are apt to be used by those with
disabilities,” while at the same time, “plenty of others
are not.” 926 F.3d at 241. The “common trait linking”
drugs that must be filled with specialty mail-service
pharmacies is complexity and cost, “not the disabled
status of their users.” Ibid.
It would be a dramatic expansion of the Nation’s
disability laws—one entirely unsupported by the text
of any statute—to hold that plans must provide particular levels of prescription drug benefits for disabled
persons, so that the unique care they require is no less
convenient to obtain on covered terms than the care
received by non-disabled persons with fewer and less
expensive medical needs. Such a rule would entail
reworking virtually all prescription drug benefit plans
to give expressly preferential treatment to disabled
persons or to remove any tools that effectively control
costs for all individuals alike. It also would undermine
the safety and efficacy of especially complex drug
protocols. That is not what the Rehabilitation Act
requires.
Second, and related, the Ninth Circuit wholly
misconstrued the law when it held that “the ACA
requires * * * health plans [to] cover prescription drugs
as an ‘essential health benefit,’” such that all prescription drug plan participants have a statutory right to
“meaningful access” to medically necessary drugs
under the terms of their plans. Pet. App. 13a-14a
(quoting 42 U.S.C. § 18022(b)(1)(F)).
As an initial matter, the ACA’s “essential health
benefit” requirement applies only to plans that provide

16
“health insurance coverage in the individual or small
group market[s].” 42 U.S.C. § 300gg-6(a). That describes neither the plans at issue here, nor most plans
to which PCMA’s members provide services.
In fact, respondents (and most Americans)—if they
sign up for prescription drug benefits at all—are
entitled to receive only those prescription drug benefits
that they choose to purchase, according to the terms on
which they purchase them, and in exchange for the
premiums and cost-sharing they agree to pay.
This crucial observation brings the Ninth Circuit’s
error into sharp focus. The “benefit” at issue here is not
prescription drugs themselves, nor is it any other kind
of substantive medical care. See Pet. App. 13a, 16a
(incorrectly describing petitioners’ benefit as the right
to “meaningful access” to “prescription drug[s]” or to
“receiv[e] effective treatment for HIV/AIDS”). Plan
sponsors, of course, design their plans with the goal of
ensuring that plan participants can afford and access
the drugs they need. But a prescription drug benefit is
nonetheless something simpler: a contractual
entitlement to receive reimbursement for the purchase
of a covered drug under the terms specified in the plan
documents. The benefit is, in other words, insurance,
based on the terms of the plan.
Thus, a prescription drug plan’s network—that is,
the universe of pharmacies at which a plan participant
is entitled to receive reimbursement for particular
drugs—is an integral element of the benefit itself.
Reimbursements for drugs purchased at non-network
pharmacies are not a part of the benefit that the
participant has contracted for. The same is true of the
requirement to use mail-service and specialty pharmacies in specified circumstances. The benefit is
entitlement to reimbursement on the facially neutral
terms agreed.

17
By inventing a new requirement that plans furnish
“meaningful access” for each individual participant to
any and all medically necessary drugs, the Ninth
Circuit’s decision in this case calls for the judicial
rewriting of the terms of virtually all prescription drug
benefit plans. And it does so on the deeply misguided
view that the terms of “access” to particularly specialized and costly drugs is not “meaningful” unless it is
precisely the same as the terms of access to ordinary
drugs like simple antibiotics and analgesics.
The Rehabilitation Act authorizes no such thing.
The ability of plan sponsors and their PBMs to design
prescription drug benefits using (among other things)
mail-service and specialty pharmacies is elemental to
the way that healthcare is delivered and paid for in the
United States. The Ninth Circuit’s holding below would
turn this system inside out, denying plans the prerogative to design—and participants the prerogative to
choose—a more limited benefit at a lower cost. There is
no basis in the ACA or the Rehabilitation Act for such
a dramatic reconceptualization of the American healthcare system.

18
CONCLUSION

Authorizing lawsuits that challenge plans’ facially
neutral coverage requirements based on disparate
impacts on individuals with particular medical conditions poses a direct and existential threat to the continued viability of prescription drug coverage. The
Court should grant the petition and reverse.
Respectfully submitted.
MICHAEL B. KIMBERLY
Counsel of Record
SARAH P. HOGARTH
McDermott Will & Emery LLP
500 North Capitol St. NW
Washington, DC 20001
(202) 756-8000
mkimberly@mwe.com
Counsel for Amicus Curiae
APRIL 2021

